   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




September 16, 2010

TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       National Institutes of Health, National Center for Research Resources—Internal
               Control Review of the Process for Monitoring Extramural Construction Grants
               Under the American Recovery and Reinvestment Act (A-02-09-02020)


The attached final report provides the results of our review of internal controls over the National
Institutes of Health, National Center for Research Resources’ process for monitoring extramural
construction grants funded under the American Recovery and Reinvestment Act of 2009,
P.L. No. 111-5 (Recovery Act). This review was part of the Office of Inspector General’s
assessment of whether the Department of Health and Human Services is using Recovery Act
funds in accordance with legal and administrative requirements and is meeting the accountability
objectives defined by the Office of Management and Budget.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-09-02020 in all correspondence.
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




NATIONAL INSTITUTES OF HEALTH,
NATIONAL CENTER FOR RESEARCH
 RESOURCES–INTERNAL CONTROL
   REVIEW OF THE PROCESS FOR
    MONITORING EXTRAMURAL
 CONSTRUCTION GRANTS UNDER
  THE AMERICAN RECOVERY AND
       REINVESTMENT ACT


                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-02-09-02020
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services (HHS) and its agencies are:

   •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

   •   Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

   •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

   •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

   •   Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and required that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Center for Research Resources

The HHS, National Institutes of Health (NIH) is the steward of medical and behavioral research
for the nation. NIH is functionally organized into 27 institutes and centers. Within NIH, the
National Center for Research Resources (NCRR) provides laboratory scientists and clinical
researchers with the environments and tools they need to understand, detect, treat, and prevent a
wide range of diseases. NCRR provides funding to eligible recipients through the issuance of
discretionary grant awards.




                                                 i
Recovery Act Funding for Extramural Construction Projects

The Recovery Act provides NCRR with $1 billion in funding to help stimulate the economy via
extramural construction projects to build, renovate, or repair non-Federal biomedical or
behavioral research facilities. As of February 5, 2010, NCRR had awarded Recovery Act
funding, totaling $246 million, for 62 extramural construction projects. The funds were issued to
eligible grantees, including institutions of higher education, non-profit, and regional
organizations. NCRR is responsible for monitoring the progress of the extramural construction
projects, and addressing non-compliance issues with the grantees. In March 2010, we issued a
report on our review of internal controls over NCRR’s process for awarding extramural
construction grants funded under the Recovery Act (A-02-09-02011).

OBJECTIVE

Our objective was to assess the internal controls NCRR has in place for monitoring extramural
construction grants funded under the Recovery Act and to determine whether the controls have
been suitably designed.

SUMMARY OF RESULTS

The internal controls over the process used to monitor Recovery Act funds for extramural
construction grants, as described by NCRR management, are suitably designed to provide
reasonable assurance that the specified internal control objectives would be achieved if the
described internal controls were complied with satisfactorily and applied as designed. However,
we did not perform procedures to determine the operating effectiveness of these internal controls.
Accordingly, we express no opinion on the operating effectiveness of any aspect of NCRR’s
internal controls over the process used to monitor Recovery Act extramural construction grant
funds, individually or in the aggregate.

This report is intended to provide a sufficient understanding of NCRR’s process for monitoring
Recovery Act funds for extramural construction awarded to grantees as it pertains to internal
control objectives in the following internal control areas: authorization and approval; accuracy,
completeness, and validity; physical safeguards and security; error handling; and segregation of
duties.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              National Center for Research Resources ........................................................1
              Recovery Act Funding for Extramural Construction Projects ........................2
              Prior Office of Inspector General Report........................................................2


          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
               Objective .........................................................................................................2
               Scope ...............................................................................................................2
               Methodology ...................................................................................................3

RESULTS OF REVIEW ......................................................................................................3

          AUTHORIZATION AND APPROVAL ....................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grantee Financial Management Systems Comply With
                Federal Regulations .....................................................................................4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Construction Plans and Specifications Are Approved .......4
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grantee Procurement Procedures Comply With Federal
                Regulations ..................................................................................................5
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Post-Award Adjustments to Project Scope or Budget Are
                Approved......................................................................................................5

          ACCURACY, COMPLETENESS, AND VALIDITY...............................................5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Extramural Construction Projects Are Completed Within
                Required Timeframes...................................................................................5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Constructed or Renovated Facilities Are Utilized
                for Intended Purposes ..................................................................................6

          PHYSICAL SAFEGUARDS AND SECURITY........................................................6
               Internal Control Objective 1: Internal Controls Provide Reasonable
                 Assurance That Access to Grant and Accounting Records, Critical Forms,
                 Processing Areas and Procedures Are Permitted Only in Accordance
                With Policy ...................................................................................................6




                                                                    iii
          Internal Control Objective 2: Internal Controls Provide Reasonable
            Assurance That Valuable Assets and Information Are Safeguarded
            From Unauthorized Access or Use ..............................................................7

ERROR HANDLING .................................................................................................7
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the National Institutes of Health Maintains Accurate
      Grant Award Information and Records........................................................7

SEGREGATION OF DUTIES ...................................................................................8
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual to Both Cause and
       Conceal Errors Are Reduced .......................................................................8




                                                     iv
                                              INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

      •    Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

      •    Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

      •    Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

      •    Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      •    Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and required that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Center for Research Resources

The HHS, National Institutes of Health (NIH) is the steward of medical and behavioral research
for the nation. NIH is functionally organized into 27 institutes and centers. Within NIH, the
National Center for Research Resources (NCRR) provides laboratory scientists and clinical


1
    Accessed at http://www.hhs.gov/recovery/reports on August 20, 2010.


                                                         1
researchers with the environments and tools they need to understand, detect, treat, and prevent a
wide range of diseases.

Recovery Act Funding for Extramural Construction Projects

The Recovery Act provides NCRR with $1 billion in funding to help stimulate the economy via
extramural construction projects to build, renovate, or repair non-Federal biomedical or
behavioral research facilities. As of February 5, 2010, NCRR had awarded Recovery Act
funding, totaling $246 million, for 62 extramural construction projects. The funds were awarded
to eligible grantees, including institutions of higher education, non-profit, and regional
organizations through the issuance of discretionary grants. 2 NCRR is responsible for monitoring
the progress of the extramural construction projects, and addressing non-compliance issues with
the grantee.

Prior Office of Inspector General Report

In March 2010, we issued a report on our review of internal controls over NCRR’s process for
awarding extramural construction grants funded under the Recovery Act. 3 We found that the
internal controls for awarding Recovery Act funds for extramural construction grants, as
described by management, were suitably designed to provide reasonable assurance that the
specified control objectives would be achieved if the described internal controls were complied
with satisfactorily and applied as designed.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls NCRR has in place for monitoring extramural
construction grants funded under the Recovery Act and to determine whether the controls have
been suitably designed.

Scope

We assessed NCRR’s internal controls over the process used to monitor Recovery Act funds
awarded to construct, renovate, or repair existing non-Federal research facilities. Our assessment
was limited to determining whether existing internal controls adequately achieved the internal
control objectives for: (1) authorization; (2) accuracy, completeness, and validity; (3) physical
safeguards and security; (4) error handling; and (5) segregation of duties. We did not perform
procedures to determine the operating effectiveness of these internal controls. Accordingly, we

2
  Discretionary grants are awarded under programs that permit NCRR, in accordance with legislation, to exercise
judgment in approving the project, project period, grantee and award amount.

3
  National Institutes of Health: National Center for Research Resources—Internal Control Review of the Process for
Awarding Extramural Construction Grants Under the American Recovery and Reinvestment Act (A-02-09-02011),
issued March 22, 2010.



                                                      2
express no opinion on the operating effectiveness of any aspect of NCRR’s internal controls over
the process used to monitor Recovery Act funds, individually or in the aggregate. We performed
fieldwork at NCRR offices in Bethesda, Maryland.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of NCRR’s internal control environment, we:

   •   reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
       by OMB, that NCRR must follow for monitoring grants;

   •   reviewed NCRR’s organizational structure, including segregations of functional
       responsibilities, policy statements, operating manuals, and personnel policies; and

   •   interviewed NCRR management as well as operations, administrative, and other
       personnel responsible for developing, assuring adherence to, and applying internal
       controls.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The internal controls over the process used to monitor Recovery Act funds for extramural
construction grants, as described by NCRR management, are suitably designed to provide
reasonable assurance that the specified internal control objectives would be achieved if the
described internal controls were complied with satisfactorily and applied as designed.
This report is intended to provide a sufficient understanding of NCRR’s process for monitoring
Recovery Act funds for extramural construction awarded to grantees as it pertains to internal
control objectives in the following internal control areas:

   •   authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

   •   accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

   •   physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

                                              3
   •   error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

   •   segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grantee Financial Management Systems Comply With Federal Regulations

   •   NCRR requires grantees to meet the standards for financial management systems set forth
       in 45 CFR §§ 74.21 or 92.20, as applicable. Specifically, grantee financial management
       systems must provide for accurate, current, and complete disclosure of financial results;
       records that identify the source and application of funds; effective control over and
       accountability for all funds; written procedures for determining the reasonableness,
       allocability, and allowability of costs; and accounting records that are supported by
       source documentation. To ensure the adequacy of grantee financial management
       systems, NCRR:

          o performs a risk assessment of new grantees to determine if they are capable of
            managing Federal funds,

          o reviews grant application documents and subsequent correspondence for existing
            grantees to identify any financial management deficiencies,

          o follows up on identified deficiencies for both new and existing grantees through
            telephone contact with grantee staff or through periodic site visits, and

          o addresses grantees who fail to correct financial management deficiencies by
            imposing special terms and conditions on awards or by requesting external audit
            assistance from the HHS Office of Inspector General.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Construction Plans and Specifications Are Approved

   •   NCRR requires grantees to submit plans and specifications for extramural construction
       projects for review and approval within 4 months after receipt of the grant award.
       Grantees must submit revised plans and specifications addressing NCRR reviewer
       comments within 8 months after receipt of the grant award. If necessary, NCRR
       performs another review to provide additional comments. NCRR requires grantees to
       submit final plans and specifications no later than 14 months after receipt of the grant
       award. If a grantee does not submit plans and specifications according to the established
       timeframes, NCRR performs a site visit to the grantee. If the site visit and conversations



                                              4
       with grantee officials suggest that the grantee will be unable to complete the project,
       NCRR will terminate the grant.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grantee Procurement Procedures Comply With Federal Regulations

   •   NCRR requires grantees to procure the services of qualified contractors and other
       specialists to perform the actual renovations or construction upon NCRR’s approval of
       final project plans and specifications. NCRR requires grantees to meet procurement
       standards set forth in 45 CFR §§ 74.40-74.48 or 45 CFR § 92.36, as applicable.
       Specifically, grantees must ensure that materials and services are obtained in an
       economical and practical manner in an environment which allows for open and free
       competition, to the maximum extent possible. In addition, grantees must stipulate in bid
       invitations a deadline for project completion, and must guarantee that contracts awarded
       will result in completion of a facility that conforms to plans and specifications approved
       by NCRR. To ensure the adequacy of grantee procurement procedures, NCRR reviews
       and approves grantee procurement procedures and justification and selection of
       bidder/contracts.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Post-
Award Adjustments to Project Scope or Budget Are Approved

   •   Grantees must obtain prior written approval from NCRR for post-award
       adjustments that would change the scope or budget of the construction project,
       including adjustments that would materially alter the cost of the project, space
       utilization, or changes in previously approved solicitations or contracts.

ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Extramural Construction Projects Are Completed Within Required Timeframes

   •   Recovery Act funds for extramural construction projects must be expended by grantees
       within 5 years after receipt of the grant award. This timeframe is shorter than what was
       required under previous construction programs; therefore, NCRR has established the
       following controls to ensure that funds are expended within the required 5-year period:

          o NCRR reviews reports and correspondence from the grantee and performs
            periodic site visits to identify potential problems and areas where technical
            assistance might be necessary.

          o Grantees are required to file Financial Status Reports certifying that all
            expenditures and obligations are accurate, complete, and incurred for grant related
            purposes.

          o Grantees are required to file annual reports detailing the progress of each
            extramural construction project.

                                              5
          o NCRR reviews grantees’ drawdowns of Federal funds from the HHS Payment
            Management System to determine if funds are being drawn in correlation to
            progress on the project.

          o NCRR considers grantees’ requests for post-award adjustments to the scope or
            budget of the project.

          o NCRR conducts closeout site visits to ensure that completed projects conform to
            approved plans and specifications.

          o NCRR monitors the progress of projects to determine if construction or
            renovations are progressing at a satisfactory rate. If NCRR is not satisfied with
            the progress, it may terminate the project.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Constructed or Renovated Facilities Are Utilized for Intended Purposes

   •   Extramural construction projects funded under the Recovery Act must be used for
       biomedical or behavioral research for a minimum of 10 years. To ensure that constructed
       or renovated facilities are utilized as required, NCRR:

          o requires grantees to record a lien or other Notice of Federal Interest with the
            jurisdiction in which the property is located,

          o requires grantees to annually submit a written certification that the facility is
            being used for its intended purpose,

          o performs site visits during the 10-year period to observe the use of grant-
            supported space, and

          o takes action to recover the Federal share of funds as warranted.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas and
Procedures Are Permitted Only in Accordance With Policy

   •   NIH maintains an agency wide security program to safeguard and secure access to
       records. The NIH Fiscal Year 2008 Improper Payments Information Act Risk
       Assessment (risk assessment) noted that security policies were updated to align with new
       OMB, National Institute of Standards and Technology, and HHS policies and guidance.
       The risk assessment also noted that the Enterprise Master Information Technology
       Security Plan, which implements relevant Federal laws, regulations, and policies, was
       recently revised. Finally, the risk assessment noted that the information technology


                                              6
       security language for contracts and acquisitions compliance with the Federal Information
       Security Management Act (FISMA) and contractor security oversight was also revised.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

   •   NIH officials told us NIH has actively addressed security issues by providing frequent
       training to staff. NIH has worked with HHS to develop role-based training for personnel
       with significant security responsibilities to comply with OMB requirements. NIH also
       recently updated its security awareness course, which is an annual requirement for all
       personnel who use information systems.

   •   NIH has a number of internal controls in place to ensure the safeguarding and security of
       data. NIH maintains an offsite server to provide backup and recovery of data. It
       implemented an automated Web-based application called the NIH Certification and
       Accreditation Tool that it uses for managing and tracking the inventory of information
       systems. The certification and accreditation is performed for 100 percent of FISMA
       systems, including systems that are critical infrastructure. Certification and accreditation
       ensures that safeguards are implemented effectively and commensurate with risks. NIH
       also implemented the HHS Security & Privacy Online Reporting Tool for tracking
       FISMA information.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
National Institutes of Health Maintains Accurate Grant Award Information and Records

   •   An NIH online information system, Information for Management, Planning, Analysis,
       and Coordination (IMPAC II), contains application and award information on extramural
       programs. NCRR enters award data into IMPAC II, which uploads the data into NIH’s
       Central Accounting System. The NIH Office of Financial Management, Government
       Accounting Branch performs a weekly reconciliation between IMPAC II and the Central
       Accounting System to ensure that there are no discrepancies in the award information
       contained in the two systems.

   •   NIH grant payments are made by the HHS Division of Payment Management using the
       Payment Management System. NIH transfers award information electronically from the
       Central Accounting System to the Payment Management System. Any items that do not
       pass Payment Management System edit checks are captured in a rotating Holding File
       maintained in the Payment Management System and are corrected by NIH Office of
       Financial Management accounting staff. In addition, the Government Accounting Branch
       performs a monthly reconciliation between the HHS Payment Management System and
       NIH Central Accounting System to ensure that there are no discrepancies in the award
       information contained in the two systems.




                                              7
SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual to Both Cause and Conceal Errors Are Reduced

   •   To prevent errors or fraud, NCRR segregates the duties for the review and approval of
       grantee-submitted plans and specifications, procurement information, and requests for
       post-award adjustments. The NCRR Program Official uses the services of the NIH
       Division of Technical Resource, Office of Research Facilities to perform the review and
       approval of grantees’ plans and specifications. The Office of Research Facilities, in
       consultation with the Program Official, works with grantees in preparing and submitting
       plans and specifications. Upon approval of the plans and specifications by the Program
       Official and the Office of Research Facilities, grantees begin the procurement process.
       The Program Official coordinates with the NCRR Grants Management Specialist and
       assigned engineer to review the procurement information and justification and selection
       of the bidder/contractor. After the Grants Management Specialist has approved the
       selection of the bidder/contractor, the NCRR Grants Management Officer revises the
       Notice of Grant Award to release the grant funds. The Grants Management Officer is the
       only NIH official authorized to obligate grant funds or to change the funding, duration, or
       other terms and conditions of award. Therefore, the Grants Management Officer is the
       only individual that can make grantee-requested changes to an award. However, prior to
       the Grants Management Officer making such changes, the Grants Management Specialist
       and Program Official must review and approve the requests for post-award adjustments.




                                              8
